BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-103
STEPHEN E. STOCKMAN,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief Amicus Curiae of American
Target Advertising, Inc. et al. in Support of Petitioner
contains 5,957 words, excluding the parts of the Brief
that are exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on August 12, 2020

Donna J. Wo~
Becker Galla er Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

'

0

JOHN D. GALLAG R
Notary Public, State of OnJo
MyCommission Expires
February 14, 2023

